                    ,    ,

                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number:, AIOOI0002                                                                     Page,l of I




                We identified a small amount of apparently copied text which suggested plagiarism
        within two NSF proposals. l We wrote the PI2 and he responded by acknowledging the copying
        and asserting strict vigilance against doing so in the future. In most instances the copied text ,
        lacked quotation marks but included citations to references in the bibliography. We reminded
        him of his responsibility to adequately distinguish all mat~al by other authors from his original
        work in his NSF proposals.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
